Nos. 19-251, 19-255

In the bupreme Court of tie ttiteb iptatefi
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA,
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
THOMAS MORE LAW CENTER,
Petitioner,
v.
XAVIER BECERRA,
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
On Writs of Certiorari to the United States
Court of Appeals for the Ninth Circuit
BRIEF OF THE NONPROFIT ALLIANCE
FOUNDATION, PEOPLE FOR THE ETHICAL
TREATMENT OF ANIMALS, ASSOCIATION OF
FUNDRAISING PROFESSIONALS, AND 123
NONPROFIT ORGANIZATIONS LISTED IN
APPENDIX AS AllfiCI CURIAE IN SUPPORT OF
PETITIONERS
ROBERT S. TIGNER
THE NONPROFIT ALLIANCE
FOUNDATION
1319 F Street, NW,
Suite 800
Washington, DC 20004

KAREN DONNELLY
Counsel of Record
ERROL COPILEVITZ
COPILEVITZ, LAM & RANEY P.C.
310 W. 20th Street, Ste. 300
Kansas City, MO 64108
(816) 472-9000
kdonnelly@clrkc.com
Counsel for Amici Curiae

1

TABLE OF CONTENTS
TABLE OF AUTHORITIES

iv

INTERESTS OF THE AMICI CURIAE

1

SUMMARY OF ARGUMENT

2

ARGUMENT

5

I.

An industry perspective on the charitable
sector and donor privacy
5
Charitable solicitation and the building of
a donor file are critical to the survival of
our nation's nonprofit organizations and
the success of their charitable,
educational, or religious programs
7
Charitable solicitation is fully protected
speech under the First Amendment
9
Charitable speech is highly regulated
under the many states' schemes of prior
restraint with significant filing burdens
and costs
11
California's compelled disclosure of
confidential donor information violates
the First Amendment rights of all charity
registrants and their major donors
12

II. This Court's precedents require strict
scrutiny to analyze California's compelled
disclosure of major donors as a precondition
to engaging in protected speech
14

11

The Ninth Circuit erred in applying the
wrong level of scrutiny to protected
speech and association
15
Both the NAACP line of cases and the
Riley line of cases in the charitable speech
and association contexts require strict
scrutiny in this case
16
III. California's compelled disclosure
requirement fails strict scrutiny, and because
it is overly broad in its application to all
charities, it is facially unconstitutional . . . . 18
The disclosure requirement is overbroad
such that in all its applications the
statute creates an unnecessary risk of
chilling free speech
19
The compelled disclosure of charities'
confidential donor information fails strict
scrutiny and is facially overbroad because
it risks the suppression of ideas and
association in all possible applications . . . . 20
California's compelled disclosure of major
donors conflicts with charities' best
practices and a longstanding regulatory
framework that protects donor privacy. . . . 23
1. Charities, organizations that rate
charities, and fundraising professionals
have established best practices and rules
providing for donor privacy and its
protection
24

111

Federal tax laws protect donor
information from disclosure to the
public and to the states
28
States have successfully registered
charities to solicit charitable
contributions for decades without the
need for donor disclosure
29
IV.

Effects on Charities

30

California demonstrably failed to protect
the confidential donor information in its
custody
30
The threat of misuse looms larger when
the states have no routine need for
information on individual donors to
enforce their charitable solicitation laws . . . 34
Since California adopted this practice,
two other states have followed; and more
will likely follow suit, even though there
is no need for such information
36
CONCLUSION
APPENDIX LIST OF AMICI

37
App. 1

iv
TABLE OF AUTHORITIES
Cases
Bates v. City of Little Rock,
361 U.S. 516 (1960)

10

Broadrick v. Oklahoma,
413 U.S. 601 (1973)

18, 19

Center for Competitive Politics v. Harris,
784 F.3d 1307 (9th Cir. 2015)

15

Forsyth Cty. v. Nationalist Movement,
505 U.S. 123 (1992)

18

Ill. ex rel. Madigan v. Telemarketing Assocs.,
538 U.S. 600 (2003)

9

McCutcheon v. FEC,
572 U.S. 185 (2014)

28

Members of City Counsel v. Taxpayers for Vincent,
466 U.S. 789 (1984)
18
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958)

passim

NAACP v. Button,
371 U.S. 415 (1963)

14, 20

Nat'l Fed'n of the Blind of Texas, Inc. v. Abbott,
647 F.3d 202 (5th Cir. 2011)

17

Nat'l Fed'n of the Blind v. Norton,
981 F. Supp. 1371 (D. Colo. 1997)

17

Planet Aid v. City of St. Johns,
782 F.3d 318 (6th Cir. 2015)

17, 18

V

Reed v. Town of Gilbert,
135 S. Ct. 2218 (2015)

17, 18

Riley v. Nat'l Fed'n of the Blind,
487 U.S. 781 (1988)

passim

Sec'y of Md. v. Joseph H. Munson Co.,
467 U.S. 947 (1984)

9, 18, 19, 23

Snyder v. Phelps,
562 U.S. 443 (2011)

10

Texas v. Johnson,
491 U.S. 397 (1989)

10

Vill. of Schaumburg v. Citizens for a Better Env't,
444 U.S. 620 (1980)
9, 20
Williams- Yulee v. Fla. Bar,
135 S. Ct. 1656 (2015)

16

Statutes
26 U.S.C. § 6104

28, 30

26 U.S.C. § 6033

12

Cal. Civ. Code § 1798

26

Cal. Gov. Code §§ 12580, et seq.

13

Fla. Stat. § 496.107

30

vi
Other Authorities
Andrea Peterson, The Sony Pictures hack,
explained, WASH. POST (Dec. 18, 2014, 3:15 PM),
https://www.washington post.com/news/theswitch/wp/2014/12/18/the-sony-pictures-hackexplained/
32
Attorney General's Guide for Charities, CAL. DEP'T
OFJUSTICE, CHARITABLE TRUSTS SECTION 1 (Jan.
2019), https://www.oag.ca.gov/sites/all/files/ag
web/pdfs/charities/publications/guide_for_
charities.pdf
15
BOARDSOURCE, The Handbook of Nonprofit
Governance 174 (2010), http://gife.issuelab.org/
resources/19261/19261.pdf
24
Brett Molina, Capital One data breach: A look at the
biggest confirmed breaches ever, USA TODAY
(Jul. 30, 2019, 5:43 PM), https://www.usatod
ay.com/story/money/2019/07/30/capital-one-databreach-among-biggest-ever/1865821001/
32
CAF World Giving Index 5, CHARITIES AID FOUND
(Oct. 2019), https://www.cafonline.org/docs/
default-source/about-us-publications/caf wgi_
10th_edition_report_2712a_web_101019.pdf . . . 5
Cybersecurity for Nonprofits, NAT'L COUNCIL OF
NONPROFITS, https://www.councilofnonpro
fits.org/tools-resources/cybersecurity-nonprofits
26

vii
Donor Disclosure, INDEPENDENT SECTOR.
http://independentsector.org/policy/policyissues/donor-disclosure/
25
Equifax Data Breach Settlement, FED. TRADE
COMM'N, https://www.ftc.gov/enforcement/ casesproceedings/refunds/equifax-data-breachsettlement (last visited Feb. 12, 2021)
32
Financial and Fundraising Issues-FAQs,
BOARDSOURCE (emphasis added),
https://boardsource.org/resources/financialfundraising-issues-faqs/
24
Giving USA 2020: Charitable giving showed solid
growth, climbing to $449.64 billion in 2019, one
of the highest years for giving on record, GIVING
USA (June 16, 2020), https://givingusa.org/
giving-usa-2020-charitable-giving-showed-solidgrowth-climbing-to-449-64-billion-in-2019-oneof-the-highest-years-for-giving-on-record/
6
How Do We Rate Charities' Accountability and
Transparency?, CHARITY NAVIGATOR,
https://www.charitynavigator.org/index.cfm?ba
y=content.view&cpid=1093 (last visited Feb. 10,
2021)
27
Josh Lyle & Mike Bunnell, EDD fraud could cost
average California family thousands of dollars,
said Rep. Tom McClintock, ABC10.COM (Feb. 15,
2021, 1:47 PM), https://www.abc10.com/article/
money/edd-fraud-cost-taxpayers-repmcclintock/103-a10a297c-04c2-44e3-b 71246fe88a02b2f (last visited Feb. 23, 2021)
32

viii
Kelly Phillips Erb, Timeline of IRS Tax Exempt
Organization Scandal, FORBES (May 7, 2014)
(involving political targeting of conservative . . . 4
Our Charity Rating Process, CHARITYWATCH,
https://www.charitywatch.org/our-charityrating-process (last visited Feb. 10, 2021)
27
S. Rep. No. 91-552 (1969), reprinted in 1969
U.S.C.C.A.N. 2027
29
Sarah Hall Ingram, Commissioner, Tax Exempt &
Government Entities, Internal Revenue Service,
Remarks Before the Georgetown University Law
Center Continuing Legal Education: Nonprofit
Governance-The View from the IRS (June 23,
2009), https://www.irs.gov/pub/irstege/ingram gtown goyernance_062309.pdf3
5
Security Breach May Have Exposed Millions Of
California DMV Vehicle Registration Records,
CBS SF (Feb. 17, 2021), https://sanfrancisco.cbs
local.com/2021/02/17/security-breach-exposesmillions-of-california-dmv-vehicle-registrationrecords/
33
The Donor Bill of Rights, ASSOCIATION OF
FUNDRAISING PROFESSIONALS. https://afpglob
al.org/donor-bill-rights
25
The Nonprofit Sector in Brief 2019, URBAN
INSTITUTE, NATIONAL CENTER FOR NONPROFIT
STATISTICS (June 4, 2020), https://nccs.urba
n.org/publication/nonprofit-sector-brief-2019#
the-nonprofit-sector-in-brief-2019
5, 6

ix
Rules
Sup. Ct. R. 37

1

Regulations
11 Cal. Code Regs. § 301

2, 13, 14

26 C.F.R. § 1.6033-2

12

26 C.F.R. § 301.6104

28

I.R.C. § 4958

29

I.R.C. § 501(c)(3)

25

I.R.C. § 501(c)(4)

25

I.R.C. § 6104

22

Constitutional Provisions
U.S. CONST. amend. I
U.S. CONST. amend. XIV

passim
9, 10

1
INTERESTS OF THE AMICI CURIAE'
The Nonprofit Alliance Foundation ("TNPAF") is a
charity that works to promote, protect, and strengthen
the philanthropic sector through education, coalition
building and, when necessary, litigation. Representing
the voice of hundreds of nonprofit organizations
nationwide, TNPAF educates, informs, and unites the
sector and the public in an increasingly complex
fundraising and regulatory landscape. Donor privacy is
critical to the success of the sector. A thriving nonprofit
sector has the resources to meaningfully change the
world.
People for the Ethical Treatment of Animals, Inc.
("PETA") is the largest animal rights organization in
the world, with more than 6.5 million members and
supporters. PETA is dedicated to ending the suffering
of animals, particularly such suffering caused by the
food industry, the clothing trade, laboratories, and the
entertainment industry. PETA works through public
education, cruelty investigations, research, animal
rescue, legislation, litigation, and protest campaigns to
educate and peacefully persuade people and
governments to cease practices that involve cruelty to
animals. PETA relies on contributions from individual
donors to fund its charitable operations.

Counsel of record for all parties received timely advance notice of
intent to file and consented to the filing of this brief. Sup. Ct. R.
37(2)(a). No part of this brief was authored by any party's counsel,
and no person or entity other than amici curiae or their counsel
funded its preparation or submission.

2
The Association of Fundraising Professionals
("AFP") is the largest community .of charitable
fundraisers in the world, representing more than
26,000 individuals and their respective organizations.
AFP's mission is to advance all aspects of fundraising,
including ethics, best practices, equity, research,
certification, and advocacy. AFP's Code of Ethics is the
only enforceable code in the profession. AFP also
helped create The Donor Bill of Rights, which
addresses the importance of donor privacy.
Amici, including the 123 nonprofit organizations
listed in the appendix, represent organizations of
various missions and sizes across the country who are
affected by California's compelled disclosure of
confidential donor information. Amici care passionately
about ensuring donor privacy for all nonprofit
organizations and their supporters. This Court's
clarification that the First Amendment indeed requires
the government satisfy strict scrutiny before collecting
charities' donor lists will not only protect amici's and
their donors' constitutional rights to associate and
contribute to public discourse, but also allow the rich
history of all charities' vital contributions to this
country's character and culture to continue into the
future.
SUMMARY OF ARGUMENT
In California, charities cannot register to engage in
fully protected charitable speech unless they divulge
the names, addresses, and contributions of their major
donors. Cal. Code Regs. tit. 11, § 301. This compelled
disclosure requirement violates the freedoms of speech
and association under the First and Fourteenth

3
Amendments as enshrined in NAACP v. Alabama ex
rel. Patterson ("NAACP"), 357 U.S. 449 (1958), and
Riley v. National Federation of the Blind, 487 U.S. 781
(1988). The requirement chills the First Amendment
rights of all charitable organizations, not just those
before this Court.
Many donors prefer to give anonymously, meaning
they prefer to keep their names, addresses, and
contribution information private. Donors give
anonymously for many reasons, such as family,
religion, personal values, or manifestations of public
hostility toward a particular cause or issue. From the
Federalist Papers and the Anti-Federalist Papers to
charitable giving in today's increasingly polarized
society, the desire to remain anonymous in one's
association and speech on certain political, religious,
social, economic and cultural issues remains a
cornerstone of First Amendment protection. Charitable
organizations must honor donor intent, and they and
their supporters should enjoy these indispensable
freedoms in all jurisdictions.
Given the California Attorney General's established
track record of numerous and regular inadvertent
disclosures of the confidential donor information it
collected en masse, the risk of loss of privacy is high. In
light of these systematic failures to safeguard private
donor information, the district court found the Attorney
General's "inability to assure confidentiality increases
the 'reasonable probability' that compelled disclosure of
donors would chill Plaintiff's First Amendment rights.
Donors and potential donors would be reasonably

4
justified in a fear of disclosure given such a context."
19-255 Pet. App. 63a.
As NAACP made clear, the disclosure of donor
names to a political office of attorney general, which
increases the risk of abuse of enforcement power, could
be just as devastating as that office's leak of the
confidential information to the media or to the public.
With the political winds of state attorney general
offices shifting from term to term, fears of threats,
harassment, reprisals, and even political targeting by
government2 for advocacy on issues of social, economic,
religious, and political importance shift as well, and
such risks are especially worrisome for controversial
issues unpopular at the time.
Because the disclosure mandate chills the First
Amendment freedoms of all charities and their
supporters, this Court should reverse the Ninth Circuit
and facially invalidate the regulation.

See, e.g., Kelly Phillips Erb, Timeline of IRS Tax Exempt
Organization Scandal, FORBES (May 7, 2014)(involving political
targeting of conservative "Tea Party" charitable organizations by
IRS), https://www.forbes.com/sites/kellyphillipserb/2015/03/02/
updated-timeline-of-irs-tax-exempt-organization-scandal/
?sh=22d3f6c66a6b; NAACP, 357 U.S. at 452 (1958)(Attorney
General demanded member list to run NAACP out of the state
during Civil Rights Era).
2

5
ARGUMENT
I.

An industry perspective on the charitable
sector and donor privacy

Charities are fundamental to American civic life
and are stronger in America than in most nations.'
The nonprofit sector is essential to our national
fabric—without it, who would feed the needy, aid the
poor, protect our animals, enrich our arts and cultural
lives, and lead our nation's churches, mosques, and
synagogues?' Grounded in the constitutional principles
of freedom of association, freedom of speech, and
freedom of religion, charities provide necessary services
to those in need that our governments and for-profit
entities cannot. Id. at 2.
In 2016, the nonprofit sector contributed an
estimated $1.05 trillion to the United States economy,
comprising 5.6 percent of our nation's gross domestic
product (GDP). The Nonprofit Sector in Brief 2019,
URBAN INSTITUTE, NATIONAL CENTER FOR NONPROFIT

CAF World Giving Index 5 (Oct. 2019), https://www.cafonline.org/
docs/default-source/about-us-publications/caf_wgi_10th_
edition_report_2712a_web_101019.pdf.
Sarah Hall Ingram, Commissioner, Tax Exempt & Government
Entities, Internal Revenue Service, Remarks Before the
Georgetown University Law Center Continuing Legal Education:
Nonprofit Governance-The View from the IRS (June 23, 2009),
https://www.irs.gov/pub/irs-tege/ingram__gtown governance_
062309.pdf.

6
STATISTICS (June 4, 2020).5 Charities recognized as
exempt under § 501(c)(3) of the Internal Revenue Code
accounted for $2.04 trillion in revenue and $1.94
trillion in expenses in 2016, which is approximately
three-quarters of the revenue and expenses for the
nonprofit sector as a whole. Id. Charities also
accounted for "just under two-thirds of the nonprofit
sector's total assets ($3.79 trillion)." Id.
Charitable giving by individuals was an estimated
$309.66 billion in 2019 and amounted to approximately
70%6 of total giving. Giving USA 2020: Charitable
giving showed solid growth, climbing to $449.64 billion
in 2019, GIVING USA (June 16, 2020).7 Charitable
giving by individuals remains "by far the biggest source
of giving." Id. (internal quotations omitted). Total
giving for 2019 climbed to $449.64 billion, up from
$431.43 billion in 2018. Id. Increased individual giving
is the primary reason for that growth. Id.
Preliminary measures suggest a significant increase
in numbers of donors and dollars contributed for 2020.
These funds support an enormous range of voluntary
activities from providing health care, shelter, and food
to providing public and private education at all levels.

Available at https: / /nccs.urban.org /publication/ nonprofit-sectorbrief- 2019#the-nonprofit-sector-in-brief-2019.

5

6 When giving by individuals through bequests is factored in, total
individual giving increases.

Available at https://givingusa.org/giving-usa-2020-charitablegiving-showed-solid-growth-climbing-to-449-64-billion-in-2019-oneof-the-highest-years-for-giving-on-record/.

7
These funds may also support unpopular causes or
controversial issues of social, political, and economic
importance in an increasingly polarized society. With
increased polarization, many donors will not give
without anonymity. Donor privacy is essential for
continued growth in individual giving and the
fundraising success of these charities.
A. Charitable solicitation and the building of
a donor file are critical to the survival of
our nation's nonprofit organizations and
the success of their charitable, educational,
or religious programs.•
Many nonprofit organizations, including and
especially those recognized as public charities exempt
under § 501(c)(3), depend on charitable contributions
from individuals to fund their educational, charitable,
religious, or other exempt purposes. Other sources of
support include gifts or grants from foundations and
governmental entities and contributions from an
organization's members. Gifts from individual donors
represent the majority of charitable contributions made
in the United States each year.
To raise funds and spread their message, nonprofit
organizations engage in charitable solicitation activity
through a variety of means, including, but not limited
to, mail, email, website, social media, telephone, doorto-door, and distribution of leaflets or handbills.
Charities engage in these activities not just to raise
money but also to spread the organization's charitable
message, create name recognition, and build a donor
file. Each contact affords the charity the opportunity to

8
deliver vital messages raising awareness about their
cause and heightening name recognition.
A donor file is a nonprofit organization's most
valuable asset. It is a list of the organization's
supporters and/or members. The donor file is the
lifeline of the organization, a trade secret, and
confidential, non-public information. Nonprofit
organizations spend decades developing this asset. An
organization's donor file includes its major donors, who
are the largest contributors to the organization's cause.
Major donors are critical to an organization's survival
and success. Relationships with major donors require
development and cultivation, and those relationships
are built on trust and integrity.
Anonymous speech and association by organizations
and their supporters has long been enshrined in our
nation's history and values, even before their
constitutional protection was guaranteed by the First
Amendment. Generally, major donors do not want their
name and association with a particular issue or cause
in the hands of a political office of government or the
public for three primary reasons: (1) loss of privacy,
if leaked to the public, others would solicit them and
perhaps denigrate the organization (or the donor); and
the donor may not want his or her support of a
particular cause or issue made known to the political
office demanding it or to the public (for any number of
reasons—e.g., family, religion, modesty, privacy, fear of
reprisal personally or professionally, or harassment).
Likewise, nonprofit organizations do not want to
divulge their donor list, including and especially their
major donors, because it conflicts with their duty to

9
honor their donors' intent to remain anonymous, and
they want to protect their most valuable asset and
relationships. If such disclosure were compelled, there
would be a "chilling effect" on the First Amendment
rights of donors and organizations to speak and
associate freely.
B. Charitable solicitation is fully protected

speech under the First Amendment.
This Court has long held that the solicitation of
charitable contributions is fully protected speech under
the First and Fourteenth Amendments. Ill. ex rel.
Madigan v. Telemarketing Assocs., 538 U.S. 600, 611
(2003); Riley, 487 U.S. at 796; Sec'y of Md. v. Joseph H.
Munson Co., 467 U.S. 947, 961-62 (1984); Vill. of
Schaumburg v. Citizens for a Better Env't, 444 U.S.
620, 632 (1980).
As this Court explained in Schaumburg, charitable
solicitation is fully protected speech because "charitable
appeals for funds . . . involve a variety of speech
interests — communication of information, the
dissemination and propagation of views and ideas, and
the advocacy of causes." Schaumburg, 444 U.S. at 632.
Charitable "solicitation is characteristically intertwined
with informative and perhaps persuasive speech
seeking support for particular causes or for particular
views on economic, political, or social issues." Id.
Accordingly, this Court has accorded heightened First
Amendment protection to charitable solicitation. Id.
The First and Fourteenth Amendments protect
Petitioners' freedom of speech and anonymous
association in California and in all jurisdictions. U.S.

10
CONST. amends. I, XIV. The First Amendment does not
protect only speech that is favored by the majority, nor
does it eschew unpopular or controversial causes. "If
there is a bedrock principle underlying the First
Amendment, it is that the government may not
prohibit the expression of an idea simply because
society finds the idea itself offensive or
disagreeable." Snyder v. Phelps, 562 U.S. 443, 458
(2011) (quoting Texas v. Johnson, 491 U.S. 397, 414
(1989)).
The right of nonprofits to engage in charitable
solicitation without state charity regulators unduly
burdening the exercise of their First Amendment
freedoms is well settled in this Court and inextricably
connected to that bedrock principle. See Riley, 487 U.S.
at 789. Also well settled is the right of donors to
associate anonymously with a charity's cause. NAACP,
357 U.S. at 463 (striking down Attorney General's
demand for charity's member list as it sought to oust
the charity from the state for political reasons); Bates
v. City of Little Rock, 361 U.S. 516, 520-21, 524 (1960)
(invaliding city's demand for NAACP's contributor list
in politically targeted attack). The sentiments and
tolerance of the majority may vary by state and by
term as state charity regulators hold temporary
political offices (e.g., attorneys general, secretaries of
state, or other executives).
Since NAACP, states know well that compelled
disclosure of an organization's member or donor names
and addresses stifles those individuals' ability to
"pursue their collective effort to foster beliefs, which
they admittedly have the right to advocate" and "may

11
induce members to withdraw from the Association and
dissuade others from joining it because of fear of
exposure of their beliefs shown through their
associations and of the consequences of this exposure."
NAACP, 357 U.S. at 463. There are many reasons
donors choose to give anonymously, and this is even
more critical today in the wake of increased
cybersecurity concerns and botched enforcement
scandals that target certain groups because of political
affiliation or ideology.
C. Charitable speech is highly regulated
under the many states' schemes of prior
restraint with significant filing burdens
and costs.
If a charity intends to engage in charitable
fundraising activity in any state requiring registration
prior to the solicitation of charitable contributions, it
must register with that state's attorney general's office
or other, state charity regulatory official, before it
begins soliciting. Presently, 39 states and the District
of Columbia broadly require nonprofits to register
before soliciting any funds, and to renew their
registrations annually.
Charities who solicit nationally may have to file
dozens of annual reports, campaign reports, and
renewal filings each year, all of which are due at
different times throughout the year and require

12
significant filing fees,' thereby driving up the cost of
compliance. Some states' annual report filings require
a mere copy of the IRS Form 9909—a nonprofit's
annual information return filed with the IRS—for the
most recent fiscal year end. Other states require a
more lengthy annual report in addition to the Form 990
and a financial audit prepared by a certified public
accountant. Except for California, New York, and New
Jersey, all states that require a copy of the Form 990 do
not require the Schedule B to the Form 990.
D. California's compelled disclosure of
confidential donor information violates
the First Amendment rights of all
charity registrants and their major
donors.
While most state charity registration laws require
nonprofit organizations to file Form 990 with their
registration filings, no state required the names and
The estimated filing fees alone for a nonprofit registrant to
engage in charitable solicitation nationally is $5,000 annually. The
total estimated cost to register with the assistance of an outside
registration service provider exceeds $12,000 per year.
'Most tax-exempt organizations, including charities, must file the
Form 990 information return annually with the IRS. 26 U.S.C.
§ 6033(a)-(b). Form 990, Schedule B, requires organizations to
report the name, address, and amount given by their largest
donors. However, to protect donor privacy, the IRS recently
discontinued its requirement that non-§501(c)(3) organizations,
including social welfare and advocacy organizations, report the
names and addresses of donors on Schedule B. 26 C.F.R. § 1.60332(a)(2)(ii)(F). Some organizations, such as churches, and small
charities reporting less than $50,000 in annual revenue, do not
have to file a 990. 26 C.F.R. § 1.6033-2(g).

13
addresses of an organization's contributors—whether
on Schedule B or otherwise—as a condition of
registration to engage in fully protected speech until
California began doing so in 2010.
To be clear, California's Supervision of Trustees and
Fundraisers for Charitable Purposes Act ("the Act"),
Cal. Gov. Code §§ 12580, et seq., does not expressly
require nonprofit organizations to file Schedule B or
any other list of major donors. Rather, it requires
nonprofits soliciting in the state to register with the
Attorney General and to file annual and periodic
reports. Cal. Gov. Code §§ 12581, 12582.1, 12584-86.
The Act leaves the content of those reports to the
discretion of the Attorney General. Cal. Gov. Code
§§ 12586-87. By rule, the Attorney General requires
charities to file a copy of "Internal Revenue Service
Form 990 . . . together with all attachments and
schedules as applicable, in the same form as filed with
the Internal Revenue Service." Cal. Code Regs. tit. 11,
§ 301 (2020).
As Petitioners explained, for many years, the
California Attorney General did not require charities to
submit Form 990s with Schedule B. The Attorney
General's Office "abruptly changed course" in 2010. 19255 Pet. 5. In 2010, the Attorney General started
demanding "the thousands of nonprofits fundraising in
California submit their Form 990s along with all
attachments, including Schedule B, as part of their
annual reports." Id. It was not until 2020 that the
Attorney General actually amended its regulation to
require "attached schedules" of the Form 990 as filed
with the IRS. Compare Cal. Code Regs. tit. 11, § 301

14
(2019). The Act itself remains silent as to the compelled
disclosure requirement, and the requirement directly
conflicts with the First Amendment, this court's
precedents, the Internal Revenue Code's nondisclosure
rules, and best practices.
II.

This Court's precedents require strict
scrutiny to analyze California's compelled
disclosure of major donors as a
precondition to engaging in protected
speech.

For the last 60 years, this Court has applied strict
scrutiny to compelled disclosures that burden free
speech and association outside the election context,
including and especially mandates that nonprofit
organizations' turn over their confidential donor lists.
NAACP, 357 U.S. at 465. NAACP and its progeny
confirmed the First Amendment requires states to
provide charities and their donors the proper
"breathing space" that "First Amendment freedoms
need . . . to survive," NAACP v. Button ("Button'), 371
U.S. 415, 433 (1963), and that government may
regulate in this area only if it has a "compelling"
interest and "only with narrow specificity." Id.
To quote an amicus submission at the certiorari
stage, "[t]his is a case about charitable solicitations,"
Br. of Institute for Justice, at 4, and not campaign
finance disclosures in the election context. California's
challenged practice of requiring disclosure of a charity's
major donors has nothing to do with electioneering.

15
The 115,0001° nonprofit organizations subject to this
unconstitutional burden on speech and association do
not engage in electioneering. In fact, § 501(c)(3)
prohibits charities from engaging in activities to
support or oppose candidates for elective public office.
A. The Ninth Circuit erred in applying the
wrong level of scrutiny to protected
speech and association.
The Ninth Circuit applied the wrong level of First
Amendment scrutiny to analyze California's compelled
disclosure requirement. Applying the test for "exacting
scrutiny" that this Court has limited to campaign
finance disclosures in the election context, the Ninth
Circuit ignored NAACP, which sets forth the correct
strict scrutiny standard applicable in this charitable
speech case, and erroneously concluded that
California's compelled disclosure requirement is
constitutional as applied.
Further, the Ninth Circuit declined to hear
petitioners' facial challenge because it felt it was bound
by the same erroneous test and conclusion that it
reached in an earlier case challenging the same
disclosure requirement. 19-251 Pet. App. 39a-40a
(citing Center for Competitive Politics v. Harris, 784
F.3d 1307, 1315-17 (9th Cir. 2015)). The Ninth Circuit
ignored the substantial trial records before it and
rewrote the facts to support its decision. See 19-255

Attorney General's Guide for Charities, CAL. DEP'T OF JUSTICE,
CHARITABLE TRUSTS SECTION 1 (Jan. 2019), https://www.oag.ca.
gov/sites/all/files/agweb/pdfs/charities/publications/guide_
for_charities.pdf.
10

16
Pet. App. 109a (Ikuta, J., dissenting from the denial of
rehearing en banc, joined by Callahan, Bea, Bennett,
and R. Nelson, JJ.); Br. of Free Speech Coalition, et al.,
at 10 n.10. As the five dissenting judges in the en banc
proceeding noted, the Ninth Circuit stated its review of
these cases was for "clear error"; however, instead, it
developed its own version of the facts contrary to the
manifest weight of the evidence before it, ignored
Petitioners' arguments, and evaded the facial
challenge.
B. Both the NAACP line of cases and the
Riley line of cases in the charitable
speech and association contexts require
strict scrutiny in this case.
As the Institute for Justice explained well in its
amicus brief at the certiorari stage, "[w]hen reviewing
laws that burden charitable solicitation or require
charities to disclose to the government facts about their
private associations, this Court has consistently
applied the very highest level of judicial scrutiny,
upholding those burdens only if they are narrowly
tailored to serve a compelling government interest." Br.
of Institute for Justice, at 18-19 (emphasis added);
Riley, 487 U.S. at 788-89; NAACP, 357 U.S. at 463.
Importantly, the Institute for Justice also clarified the
varying parlance in some of these charitable speech
cases over the years:
the Court has called this standard "exacting
scrutiny," but the elements of this standard are
synonymous with what this Court has elsewhere
called "strict scrutiny." Compare Williams-Yulee
v. Fla. Bar, 135 S. Ct. 1656, 1664 (2015) ("We

17
have applied exacting scrutiny to laws
restricting the solicitation of contributions to
charity, upholding the speech limitations only if
they are narrowly tailored to serve a compelling
interest."), with Reed v. Town of Gilbert, 135 S.
Ct. 2218, 2231 (2015) ("[C]ontent based
restrictions on speech . . . can stand only if they
survive strict scrutiny, which requires the
Government to prove that the restriction
furthers a compelling interest and is narrowly
tailored to achieve that interest." (internal
quotation marks omitted)) . . . In charitablesolicitation cases, this Court has used "exacting
scrutiny" synonymously with strict scrutiny.
Br. of Institute for Justice, at 19, 21.
Lower courts across the country have long followed
this Court's precedents, subjecting prophylactic rules
that unduly burden charitable solicitation to strict
First Amendment scrutiny. Id.; Nat'l Fed'n of the Blind
of Texas, Inc. v. Abbott, 647 F.3d 202, 212 (5th Cir.
2011)(applying strict scrutiny to Texas law regulating
charitable solicitation); Planet Aid v. City of St. Johns,
782 F.3d 318, 328-29 (6th Cir. 2015)(applying strict
scrutiny to ordinance regulating charitable
solicitation); Nat'l Fed'n of the Blind v. Norton, 981 F.
Supp. 1371, 1373 (D. Colo. 1997)(applying strict
scrutiny to Colorado Charitable Solicitations Act). If
there was any doubt as to the controlling standard of
First Amendment scrutiny in charitable solicitation
cases, this Court resolved that in Reed and clarified

18
that strict scrutiny is the rule in charitable speech
cases.1'
III. California's compelled disclosure
requirement fails strict scrutiny, and
because it is overly broad in its application
to all charities, it is facially
unconstitutional.
Overbroad regulations are facially unconstitutional
because they are not narrowly tailored to further the
state's asserted interest. Munson, 467 U.S. at 968-69.
"Where, as here, a statute imposes a direct restriction
on protected First Amendment activity and where the
statute's defect is that the means chosen to accomplish
the State's objectives are too imprecise, so that in all its
applications the statute creates an unnecessary risk of
chilling free speech, the statute is properly subject to
facial attack." Id. Such statutes are facially
unconstitutional because "every application" creates
"an impermissible risk of suppression of ideas." Forsyth
Cty. v. Nationalist Movement, 505 U.S. 123, 129-30
(1992); Members of City Counsel v. Taxpayers for
Vincent, 466 U.S. 789, 797 (1984); see also Broadrick v.

'Under Reed, laws that target charitable solicitation are contentbased because they regulate based on subject matter and/or topic
of charitable speech. See Reed, 135 S. Ct. at 2230; Planet Aid, 782
F.3d at 328-29 (pre-Reed but reaches the same conclusion required
under a Reed analysis). Content-based regulations of speech are
subject to strict scrutiny. See id., Riley, 487 U.S. at 795. Reed thus
affirmed longstanding prior precedent applying strict scrutiny to
charitable solicitation laws and explained how and why we got
there.

19
Oklahoma, 413 U.S. 601, 612 (1973). Such is the case
here.
A. The disclosure requirement is
overbroad such that in all its
applications the statute creates an
unnecessary risk of chilling free speech.
The California Attorney General's prophylactic rule
requiring disclosure of confidential donor information
on Schedule B by all nonprofit registrants in California
is not limited in its application to Americans for
Prosperity and Thomas More Law Center. The
California disclosure requirement applies to all
115,00012 (or more) charities registered to solicit
charitable contributions in California as of 2019,
including most amici.
Because the disclosure mandate unduly burdens
"these indispensable liberties" of speech and
association, NAACP, 357 U.S. at 461, and creates an
unnecessary risk of chilling free speech and association
in all its applications to charities not before the Court,
Munson, 467 U.S. at 968-69, this Court should reverse
the Ninth Circuit's decision and facially invalidate the
compelled disclosure requirement.

12

Supra n.10.

20
B. The compelled disclosure of charities'
confidential donor information fails
strict scrutiny and is facially overbroad
because it risks the suppression of ideas
and association in all possible
applications.
California's requirement that charities disclose
their major donors on Schedule B to register to solicit
charitable contributions in the state fails strict scrutiny
because it is not narrowly tailored to further a
compelling state interest. The state asserts its interest
lies in protecting the public from charitable fraud.
However, the compelled disclosure of confidential donor
information from all 115,000 charities registering to
engage in protected speech in California, including
major donors outside the State of California, has no
substantial relationship to preventing fraud in
California. It does nothing to prevent fraud. Id. at 967.
Equally problematic, the requirement operates on
the assumption that every registering charity is guilty
of fraud until proven innocent. Such prophylactic rules
burdening charitable speech have consistently been
stricken by this Court as facially overbroad.
Schaumburg, 444 U.S. at 637 (invalidating broad,
prophylactic rule burdening charitable speech, and
noting that treatment of all charities as if they are
suspected of fraud is constitutionally impermissible);
Riley, 487 U.S. at 800 (striking down "prophylactic,
imprecise, and unduly burdensome rule" governing
charitable solicitation where "more benign and
narrowly tailored options are available"); Button, 371
U.S. at 438 ("broad prophylactic rules in the area of

21
free expression are suspect. Precision of regulation
must be the touchstone. . . .").
Further, the state admitted, and the district court
found, that charities' confidential donor information is
not necessary to register the 115,000 charitable
organizations applying to engage in a fully protected
speech activity, and that the requirement is merely one
of convenience. 19-255 Pet. App. 66a. The amicus brief
of 14 other states confirms that such private,
confidential data is not needed to carry out a state's
registration process. Br. of Arizona, et al., at 8, 10.
Donor information is equally unnecessary for the
Attorney General's enforcement of the state's
charitable solicitation laws. Id. In fact, the district
court found that "the attorney general was hard
pressed to find .a single witness who could corroborate
the necessity of Schedule B forms in conjunction with
their office's investigations." 19-251 Pet. App. 44a. To
that end, the district court found that out of 540
investigations of charitable fraud over ten years, the
Attorney General's Office had used Schedule B
information in only five cases, and even then admitted
it could have obtained the same data in other more
narrowly tailored ways, such as through its subpoena
power. Id. at 45a.
Attorneys overseeing such investigations further
testified that successful investigations can be
completed without Schedule B and that the same
information can be obtained through less restrictive
means. 19-255 Pet. App. 57a. The "testimony of
multiple lawyers within the attorney general's office
clearly indicate that the attorney general could have

22
achieved its end by more narrowly tailored means." Id.
Finding, therefore, that it is "indeed possible for the
attorney general to monitor charitable organizations
without Schedule B," id. at 54a, the attorney general is
limited in pursuing its interests "by means which do
not 'broadly stifle fundamental personal liberties when
the end can be more narrowly achieved."' Id. at
56a. The disclosure requirement thus fails the
narrowly tailored prong in all possible applications. 19255 Pet. 28.
In addition, the district court spent significant time
noting the numerous inadvertent disclosures of
confidential donor information by the attorney general
in contravention of the privacy protections afforded by
the First Amendment, I.R.C. § 6104, and assurances
from that office that steps were in place to prevent
disclosure. 19-251 Pet. App. 51a-53a; 19-255 Pet. App.
52a, 58a, 61a-62a. "[T]aken in the context of a proven
and substantial history of inadvertent disclosures," the
district court found "this inability to assure
confidentiality increases the 'reasonable probability'
that compelled disclosure of Schedule B would chill
Plaintiffs First Amendment rights. Donors and
potential donors would be justified in a fear of
disclosure given such a context." 19-255 Pet. App. 62a63a.
Because the compelled disclosure fails strict
scrutiny; and it is overbroad in its chilling of First
Amendment freedoms, this Court should reverse the
Ninth Circuit and facially invalidate the mandate.
Charities should not be forced to file an as-applied
challenge and prove threats, harassment, and reprisals

23
to free themselves of California's unconstitutional
burden on their First Amendment rights to speak
freely and associate anonymously. Munson, 467 U.S. at
965 n.13 ("there is no reason to limit challenges to caseby-case 'as applied' challenges when the statute on its
face and therefore in all its applications falls short of
constitutional demands."). That superfluous
requirement of hundreds of individual legal
challenges" defies the very purpose and protection of
the freedom of speech and association and directly
conflicts with this Court's precedent in the Riley line of
charitable solicitation cases.
C. California's compelled disclosure of
major donors conflicts with charities'
best practices and a longstanding
regulatory framework that protects
donor privacy.
Protecting the privacy of donors is paramount to
any nonprofit organization; it ensures that donors feel
secure in entrusting them with their identities and
their private contributions and support for particular
causes or issues. The possibility of repeat donations
gives charities a strong incentive to stringently protect
donor information, including and especially from
overreaching demands of political offices that regulate
charitable solicitation.

Requiring each charity to bring an individual as-applied
challenge redirects charitable assets from furthering the
organization's exempt purposes to instead defending the
constitutional freedoms denied each organization not before the
Court.

13

24
1. Charities, organizations that rate
charities, and fundraising professionals
have established best practices and
rules providing for donor privacy and
its protection.
Best practices adopted by the nonprofit sector
encourage charities to implement and maintain privacy
policies and a Donor Bill of Rights that sets the
standards for the organization's fundraising activities
and ensures that donor intent is honored.
For example, Boardsource, a leader in best practices
and board governance training, explains that a Donor
Bill of Rights "outlines the donor's right to receive
proper recognition, gain access to the organization's
financial statements, obtain information on how funds
are being distributed, and stay anonymous if desired."
Financial and Fundraising Issues-FAQs,
BOARDSOURCE (emphasis added), https://boardsource.
org/resources/financial-fundraising-issues-faqs/ .
Boardsource confirms that some donors simply prefer
to give anonymously, and it lists the benefits to
anonymous giving. Id. In its Handbook of Nonprofit
Governance, Boardsource advises "[w]hen a donor
wishes to remain anonymous, the organization must
respect the donor's wishes . . . ." BOARDSOURCE, The
Handbook of Nonprofit Governance 174 (2010).14
The Association of Fundraising Professionals
publishes a Donor Bill of Rights and Code of Ethics to
guide nonprofits in fundraising activities. The Donor

14

Available at http://gife.issuelab.org/resources/19261/19261.pdf.

25
Bill of Rights states donors have the right "to be
assured that information about their donations is
handled with respect and with confidentiality to the
extent provided by law." The Donor Bill of Rights,
ASSOCIATION OF FUNDRAISING PROFESSIONALS,
http s ://afp global. org/donor-bill-rights .
Independent Sector, another respected leader in
industry best practices, says the following on the
subject of donor privacy:
Donor privacy is a critically important principle
for nonprofit organizations. It enables
potentially controversial or less popular causes
to receive financial support from individuals
without posing a public risk to donors.
Currently, 501(c)(3) charitable organizations and
501(c)(4) social welfare organizations are
permitted to protect the privacy of their donors
and prevent them from being made public.
Donor Disclosure, INDEPENDENT SECTOR,
http://independentsector.org/policy/policy-issues/donordisclosure/.
The California Attorney General's Office also
publishes its own Attorney General's Guide for
Charities, which sets'forth best practices for nonprofits
that operate or fundraise in California. See Attorney
General's Guide for Charities, supra n.10. The Guide
states: "Find out what practices the fundraising
professional implements to protect donor privacy, and
who is responsible for performing security data breach
notification as required by law." Id. at 71.

26
Ironically, the California Attorney General's best
practices require nonprofits to know whose
responsibility it is to provide notification of security
data breaches, yet the Attorney General failed to notify
any of the 1,800 charities whose confidential donor
information was leaked by that office when it
inadvertently published Schedule Bs on its website. 19251 Pet. 9. Nor did the Attorney General notify any of
the charities whose confidential Schedule Bs were
made searchable on its website due to a security data
breach. Id. Also, ironically, the Attorney General's
failure to notify individuals • whose personally
identifiable information was released violated
California's own data breach notification law. Cal. Civ.
Code § 1798.
Best practices also require charities to invest in
adequate cybersecurity measures. Charities are wellversed in the need to "assess the risks of a data
security breach, and protect...data from unauthorized
disclosure." Cybersecurity for Nonprofits, NAT'L
COUNCIL OF NONPROFITS, https://www.councilofnon
profits . org/tools - re source s/cyb ers ecurity- nonprofits .
Best practices require nonprofit organizations to
implement data protection, management, and security
standards respecting donor privacy to ensure the
confidentiality of donor information and to protect
against cybersecurity threats.
In addition to best practices, charities are "graded"
by various rating organizations and watchdog groups
based on a myriad of criteria, including how donor
information is handled and secured. These rating
organizations and watchdog groups directly influence

27
how potential donors spend their money by informing
the public about which charities are more "worthy" to
donate to based on how well they implement industry
best practices. Accordingly, every charity stands to lose
part or all of its donor database (and potential future
donors) if it garners a negative review or rating for
failure to implement best practices regarding donor
privacy and cybersecurity measures.
For example, Charity Navigator's methodology for
ranking a nonprofit organization under industry best
practices takes into account a charity's privacy policy,
and the desire of donors to have their information kept
confidential. How Do We Rate Charities' Accountability
and Transparency?, CHARITY NAVIGATOR,
https://www.charitynavigator.org/index.cfm?bay=
content.view&cpid=1093. Potential harms from
disclosure of donor information "can be minimized if
the charity assures the privacy of its donor lists." Id.
Similarly, CharityWatch reports on a charity's
privacy policy as an informational benchmark for
potential donors. See Our Charity Rating Process,
CHARITYWATCH, https://www.charitywatch.org/our-ch
arity-rating-process. It grades a charity based on the
strength of its privacy policy and provides donors with
a clear picture of how well a charity protects its
confidential donor information. Id. Watchdog
organizations like Charity Navigator and
CharityWatch require charities to protect donor
privacy.
To succeed in the marketplace of ideas, charities
must safeguard the confidential information of their

28
supporters, including and especially their major
donors.
2. Federal tax laws protect donor
information from disclosure to the
public and to the states.

The Internal Revenue Code requires that Form 990
filers make their returns available to the public upon
request, with one important exception: Schedule B. See
26 U.S.C. § 6104(d)(3)(A)(exempting charities from
having to disclose "the name or address of any
contributor"); 26 C.F.R. § 301.6104(d)-1 (b)(4) (ii) ("the
term annual information return does not include the
name and address of any contributor to the
organization")(emphasis added); I.R.S. Notice 88-120,
1988-2 C.B. 454 (the requirement to make an annual
information return available to the public "applies to
an exact copy of the original Form 990 and all
schedules and attachments filed with the Internal
Revenue Service except that the required disclosure
does not include the names and addresses of
contributors to the organization")(emphasis added).
Charities thus "must publicly disclose most of their tax
return, see 26 U.S.C. § 6104(d)(1), but they are 'not
required to publicly disclose their donors."' 19-251 Pet.
6 (quoting McCutcheon v. FEC, 572 U.S. 185, 224
(2014)(plurality opinion); 26 U.S. C . § 6104(d)(3)(A). As
Petitioners explained, "a charity's Form 990 is public,
but its Schedule B is not." Id.; 19-255 Pet. 7.
Moreover, under 26 U.S.C. §§ 6104(b) and
6104(c)(3), Congress forbids the IRS from disclosing the
"name or address of any contributor" listed on Schedule
B to anyone, including to state regulators. 19-255 Pet.

29
6-7; 19-251 Pet 6. Violations of this nondisclosure rule
result in significant civil and criminal penalties. Id.
As petitioners explained, the legislative history
surrounding the relevant federal statutory protections
precluding disclosure of donor information is grounded
in the constitutional interest of protecting donor
privacy. "Congress explicitly provided for donor privacy
`because some donors prefer to give anonymously' and
because `requir[ing] public disclosure in these cases
might prevent the gifts."' 19-251 Pet. 6 (quoting S. Rep.
No. 91-552, at 53 (1969), reprinted in 1969
U.S.C.C.A.N. 2027, 2081).
3. States have successfully registered
charities to solicit charitable
contributions for decades without
the need for donor disclosure.
Unlike the IRS, which already polices charities for
potential self-dealing, excess benefit transactions
(including those with substantial contributors),15
related party transactions, improper loans,
expenditures, and accounting for all things including
non-cash charitable contributions, the states do not
have analogous tax rules to enforcc certainly not in
the context of charitable solicitation. States do not need
Schedule B information, and California admits it has
no routine use for it. Br. Arizona, et al., at 10. Indeed,
for more than thirty years, all states that regulate
charitable solicitation proved they were able to
successfully do so without "demanding unfettered

15

See I.R.C. § 4958.

30
access to the private details of charities' associations
with their donors." Br. of Institute for Justice, at 2.
Indeed, some states, such as Florida, which has a
strong interest in protecting donors from fraud,
expressly protect donor information from disclosure to
state government by statute. Under Fla. Stat.
§ 496.407(2)(a), a charity that submits its Form 990
with its annual registration renewal "may redact
information that is not subject to public inspection
pursuant to 26 U.S.C. s. 6104(d)(3) before submission."
Not only is confidential donor information not needed
for state charitable solicitation registration, charities
can, and best practices dictate they should, refuse to
provide confidential donor information to state political
offices, such as the attorney general, absent compulsory
process.
IV.

Effects on Charities

Because California's compelled disclosure
requirement violates donor privacy, it causes
irreparable harm to nonprofit fundraising and to the
nation's charitable sector.
A. California demonstrably failed to
protect the confidential donor
information in its custody.
California's track record on the confidentiality of
donor information—whether on Schedule B or
otherwise—is downright alarming. The district court
identified numerous failures by the California Attorney
General's office to protect confidential donor
information. The Attorney General's "inability to keep
confidential Schedule Bs private is of serious concern,"

31
as it "systematically failed to maintain the
confidentiality" of such forms. 19-251 Pet. App. 51a.
The Attorney General's failures here amounted to far
more than isolated incidents. Rather, "the amount of
careless mistakes made by the Attorney General's
Registry is shocking." Id.
In particular, at one point the Attorney General's
office allowed 1,800 Schedule Bs to be available for
public access on its official website. Id. at 123a. This
included the names and addresses of thousands of
donors, all of which were meant to be kept private.
Even the Attorney General's investigation of the
matter admitted "posting that kind of information
publically could be very damaging" to many of the
organizations at issue. Id. at 52a.
The district court also was unmoved by the Attorney
General's remedial steps in the wake of this breach.
"Once a confidential Schedule B has been publically
disseminated via the internet, there is no way to
meaningfully restore confidentiality." Id. at 53a. There
is no way to claw it back. The Attorney General's
assurances of updated confidentiality practices were
"irreconcilable" with the "pervasive, recurring pattern
of uncontained Schedule B disclosures." Id. at 52a. In
light of the Attorney General's history of "completely
violating" the confidentiality of Schedule Bs, its
"assurances that a regulatory codification of the same
exact policy will prevent future inadvertent disclosures
rings hollow." 19-255 Pet. App. 62a.
Further, the Attorney General admitted that its
registry "is underfunded, understaffed, and
underequipped when it comes to the policy surrounding

32
Schedule Bs." 19-251 Pet. App. 52a. "Underfunded,
understaffed, and underequipped" are hardly three
adjectives synonymous with effective protection of
confidential information. It is doubtful that donors
would be comforted by knowing that their confidential
information is being processed and held under such
paltry conditions. Id.
It should be noted that these breaches of
confidentiality by the Attorney General's office did not
happen in a vacuum. They come in an era when cyber
hacks of governmental organizations and corporations
alike are increasingly common. Massive data breaches
involving Equifax, Yahoo!, Capital One, Target and
Sony have made headlines, and put the confidential
data of millions at risk.' Recent security breaches of
California's government agencies are no exception.
These include the breach of the California Employment
Development Department,' resulting in losses of

16

Equifax Data Breach Settlement, FED. TRADE COMM'N,
https://www.ftc. gov/enforcement/cases-proceedings/refunds/
equifax-data-breach-settlement (last visited Feb. 12, 2021); Brett
Molina, Capital One data breach: A look at the biggest confirmed
breaches ever, USA TODAY (Jul. 30, 2019), https://www.usatoda
y.com/story/money/2019/07/30/capital-one-data-breach-amongbiggest-ever/1865821001/; Andrea Peterson, The Sony Pictures
hack, explained, WASH. POST (Dec. 18, 2 0 1 4),
https://www.washingtonpost.com/news/the-switch/wp/2014/
12/18/the-sony-pictures-hack-explained/.
Josh Lyle & Mike Bunnell, EDD fraud could cost average
California family thousands of dollars, said Rep. Tom McClintock,
ABC10.COm (Feb. 15, 2021), https://www.abc10.com/article/
money/edd-fraud-cost-taxpayers-rep-mcclintock/103-a10a297c04c2-44e3-b712-46fe88a02b2f.
17

33
billions of dollars in unemployment insurance claims,
and a breach of the California Department of Motor
Vehicles, resulting in the exposure of millions of
Californians' private information.' Given the current
climate, where it is becoming harder and harder to
protect confidential information, the requirement to
disclose donor information of Schedule B presents a
massive risk of loss of privacy. This makes unpopular
charities and those who advocate with respect to
controversial issues especially vulnerable in our
increasingly polarized community.
This massive risk, when coupled with the Attorney
General's systemic failures to actually protect
confidential information, is particularly egregious
because the Attorney General's office rarely uses
Schedule Bs to conduct its responsibilities pertaining
to charitable organizations. The Attorney General "does
not use the Schedule B in its day-to-day business," and
"seldom use [s] Schedule B when auditing or
investigating charities." 19-251 Pet. App. 45a.

Security Breach May Have Exposed Millions Of California DMV
Vehicle Registration Records, CBS SF (Feb. 17, 2021),
https://sanfrancisco.cbslocal.com/2021/02/17/security-breachexposes-millions-of-california-dmv-vehicle-registration-records/.
18

34
B. The threat of misuse looms larger when
the states have no routine need for
information on individual donors to
enforce their charitable solicitation
laws.
The record is clear: the Attorney General has no
genuine need for Schedule Bs. The office routinely
conducts successful investigations into charitable
organizations without the need for a Schedule B. The
record "lacks even a single, concrete instance in which
pre-investigation collection of a Schedule B did
anything to advance the Attorney General's
investigative, regulatory or enforcement efforts." 19251 Pet. App. 47a (admitting Schedule B used in only
five of 540 investigations over ten years). Even in the
five instances where a Schedule B was used, (a) it was
unclear whether they were even un-redacted Schedule
Bs, and (b) the relevant information in such Schedule
Bs "could have been obtained from other sources." Id.
at 45a.
Further, the state listed each Petitioner "as an
active charity in compliance with the law" for ten
years, accepting its annual registration for each of
those years without Schedule B. Id. at 42a; 19-255 Pet.
App. 52a. The Attorney General cannot reasonably
claim it has a genuine need for Schedule Bs given how
seldom it actually uses the form.
In addition, fourteen states with laws regarding
charitable solicitation have agreed there is no routine
need for information about individual donors to enforce
such laws. See Br. of the State of Arizona, et al., at 10.
These states note that 47 states and the District of

35
Columbia are able to effectively supervise charities in
(or soliciting in) their jurisdiction without requiring
confidential donor information, and that the "lack of
donor disclosure requirements has not prevented them
from exercising oversight of non-profits that solicit
donations within their jurisdictions and investigating,
prosecuting, and deterring fraudulent activities." Id. at
6-7. Furthermore, if the need to acquire an
organization's donor information emerges, then the
states are free to seek a targeted subpoena pursuant to
their investigative powers. Id. at 7.
For example, the states highlight an occasion where
all 50 states "joined in a civil enforcement action in
Arizona against four sham cancer charities and the
individuals who ran them." Id. at 7. California's
Attorney General used this action as an example of one
of the few times that a Schedule B was used in an
investigation. However, the Schedule B was obtained
via a targeted subpoena, and not pursuant to any
annual registration filing. See id. This further shows
how little the Attorney General actually needs to
enforce its Schedule B requirement against all
registered charities.'
Because the Attorney General has such little actual
use for Schedule Bs, a reasonable person might ask, "If
they do not need the information to enforce solicitation
laws, then why do they want it?"

Requiring the Attorney General to seek a subpoena to acquire a
Schedule B would better protect the rights of the charitable
organizations, giving them a fair opportunity to resist such
subpoena within the confines of the judicial system.
19

36
C. Since California adopted this practice,
two other states have followed; and
more will likely follow suit, even though
there is no need for such information.

If the Court affirms the Ninth Circuit's decision,
more states may follow California's lead. Br. of United
States, at 23. New York and New Jersey have already
done so. Were more states to require an unredacted
Schedule B, the already substantial chance that the
confidential donor information of myriad charities will
be inappropriately made available to the public will
only increase.
Given California's abysmal track record, if other
states follow its lead, it is unreasonable to expect donor
information to remain confidential. With data breaches
of even national security and high-level corporate data
becoming increasingly common, how can we expect
regulators' storage of charities' confidential data on
their websites (and off) to remain secure?
If the Ninth Circuit's decision is not reversed, the
record makes clear that major donor names likely will
be exposed. That will result in donors' reluctance to
give and/or pirating by other groups. Some
organizations have already decided not to solicit
contributions in California, New York, and New Jersey
for fear of harassment or reprisal, and expanded
collection of such data only increases the risk of a loss
of privacy.
Compelled disclosure of charitable organizations'
major donors by state attorneys general is destructive
not only to civil liberties, but also to charities' ability to

37
raise funds to support their causes. As Philanthropy,
Roundtable explained, "[d]onor anonymity is too
important a First Amendment right to be sold at so
cheap a price." Br. of Philanthropy Roundtable, et al.,
at 18.
CONCLUSION
For the reasons stated above, this Court should
reverse the Ninth Circuit's decision and find the donor
disclosure requirement facially unconstitutional.
Respectfully submitted,
ROBERT S. TIGNER
THE NONPROM ALLIANCE
FOUNDATION
1319 F Street, NW,
Suite 800
Washington, DC 20004

KAREN DONNELLY
Counsel of Record
ERROL COPILEVITZ
COPILEVITZ, LAM & RANEY P. C.
310 W. 20th Street, Ste. 300
Kansas City, MO 64108
(816) 472-9000
kdonnelly@clrkc.com
Counsel for Amici Curiae

App. 1
APPENDIX
List of Amici
AHC Inc.
American Leadership Forum — Great Valley Chapter
America's Promise Alliance
Amyloidosis Foundation
Animal Legal Defense Fund
Animal Welfare League of Arlington
Association of Fundraising Professionals (AFP) —
NYC Chapter
AFP — Westchester NY
AFP — NW Ohio Chapter
AFP — Hampton VA Chapter
Association of the Miraculous Medal
Aura Home Women Vets
Avenidas
Bashor Children's Home
Best Friends Animal Society
Bethesda Lutheran Communities Inc.
Brothers of the Christian Schools — Dist. of Eastern
North America
Busted Halo
Catholic Charities of La Crosse
Catholic Medical Mission Board
Central Florida Council, BSA
Central West Ballet
Charity Navigator
Chesapeake Bay Foundation
Children to Love International
Children's Museum of Evansville
Christian Appalachian Project
Chronic Disease Fund
Community Foundation of South Lake County Inc.

App. 2
Concordia University — Nebraska
Concordia University — St. Paul
Congregation of the Mission — Western Province
Congregation of the Sacred Hearts — US Province
Connecticut Humane Society
Council for Advancement and Support of Education
(CASE)
Defenders of Wildlife
Disabled American Veterans
Divine Word College
Doctors Without Borders/Medecins Sans Frontieres
Early Learning Focus
Edmundite Missions
Empower Hope
Farm Sanctuary
Feeding America — Eastern Wisconsin
Food for the Poor
Franciscan Sisters OLPH
Fuller Center for Housing of Greater New York City
Global Outreach International
Global Wildlife Conservation
Good Days
Heritage University
Historic Districts Council
Humane Society of Charlotte
Humane Society of Utah
Immaculate Heart Retreat Center
Inprint
Institute for Community Living
Institute of the Blessed Virgin Mary — US Province
International Rescue Committee
International Society for Animal Rights
Kappa Alpha Educational Foundation
KUAC Friends Group — NPR

App. 3
Legionaries of Christ
Loaves & Fishes, Inc.
Lowville Food Pantry, Inc.
Marketing EDGE
Mercy For Animals
Messianic Vision, Inc.
Miracle Flights
Missionary Sisters of the Most Sacred Heart of Jesus
Montgomery County Family YMCA
NARAL Pro-Choice North Carolina
National Cancer Assistance Foundation
National Tuberous Sclerosis Association, Inc.
National Wildlife Federation
Nonprofit Connect
Nonprofit Financial Sustainability Foundation
Nonprofit Leadership Alliance
Operation Food Search
Ourganda
Pacific Crest Trail Association
Paralyzed Veterans of America
Pathfinder International
PBS Reno
PETA Foundation
Pi Kappa Alpha Foundation
Pioneers — USA
Potomac Conservancy
Rising Ground, Inc.
Salesian Missions
Sigma Nu Educational Foundation
Society of the Divine Word — Chicago Province
Society of the Little Flower
Southern Poverty Law Center
Southfield School
Southwest Chicago Christian School Association

App. 4
St. Benedict's Prep
St. Labre Indian School
Students for Live of America
Support Our Aging Religious (SOAR!)
Switch 4 Good
Syria Shriners
The Animal Defense Partnership
The Good Food Institute, Inc.
The Haven of Transylvania County
The Marist Brothers
The National Children's Cancer Society
The Nature Conservancy
The Nonprofit Alliance
The Workers Circle
Tri Delta Foundation
Trinity Missions
United States Catholic Mission Association
University of Illinois
UrbanPromise Wilmington
Virginia Museum of Natural History Foundation
Western Tidewater Free Clinic, Inc.
Winona Community Foundation
Wisconsin Right to Life
Women's Sports Foundation
YMCA of Rock River Valley
Zeta Psi Educational Foundation
Zionist Organization of America

